   DEPARTMENT OF HEALTH AND HUMAN SERVICES                           OFFICE OF INSPECTOR GENERAL

                                                                     Office of Audit Services, Region III
                                                                     Public Ledger Building, Suite 316
                                                                     150 S. Independence Mall West
                                                                     Philadelphia, PA 19106-3499



November 30, 2011

Report Number: A-03-11-00005

Mr. Bruce Hughes
President and Chief Operating Officer
Palmetto GBA, LLC
P.O. Box 100134
Columbia, SC 29202

Dear Mr. Hughes:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Payments Exceeding Charges by $500 to
$1,000 for Outpatient Services Processed by National Government Services but Transitioned to
Palmetto GBA, LLC, in Jurisdiction 11 for the Period January 1, 2006, Through June 30, 2009.
We will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(215) 861-4470, or contact Bernard Siegel, Audit Manager, at (215) 861-4484 or through email
at Bernard.Siegel@oig.hhs.gov. Please refer to report number A-03-11-00005 in all
correspondence.

                                             Sincerely,



                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Bruce Hughes


cc:
Mr. Neal Burkhead
Vice President
J11 AB MAC Operations

Ms. Yvonna Ruff
Director
Part A Claims

National Government Services Medicare


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL


 REVIEW OF MEDICARE PAYMENTS
       EXCEEDING CHARGES
      BY $500 TO $1,000 FOR
OUTPATIENT SERVICES PROCESSED BY
  NATIONAL GOVERNMENT SERVICES
      BUT TRANSITIONED TO
      PALMETTO GBA, LLC,
        IN JURISDICTION 11
 FOR THE PERIOD JANUARY 1, 2006,
     THROUGH JUNE 30, 2009

                         Daniel R. Levinson
                          Inspector General

                          November 2011
                          A-03-11-00005
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov
                       HU                   U




 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with Medicare contractors to process and pay Medicare claims submitted for outpatient
services. The Medicare contractors use the Fiscal Intermediary Standard System and CMS’s
Common Working File (CWF) to process claims. The CWF can detect certain improper
payments during prepayment validation.

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains details regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered. In addition, providers should charge Medicare and other payers, such as private
insurance companies, uniformly. However, Medicare uses an outpatient prospective payment
system to pay certain outpatient providers. In this method of reimbursement, the Medicare
payment is not based on the amount that the provider charges. Consequently, the billed charges
(the prices that a provider sets for its services) generally do not affect the current Medicare
prospective payment amounts. Billed charges generally exceed the amount that Medicare pays
the provider. Therefore, a Medicare payment that significantly exceeds the billed charges is
likely to be an overpayment.

Before May 16, 2011, National Government Services (NGS) was the Medicare fiscal
intermediary for Virginia and West Virginia. From January 2006 through June 2009, NGS
processed approximately 92 million line items for outpatient services, of which 925 line items
had (1) a Medicare line payment amount that exceeded the line billed charge amount by $500 to
$1,000 and (2) 3 or more units of service. (A single Medicare claim from a provider typically
includes more than one line item. In this audit, we did not review entire claims; rather, we
reviewed specific line items within the claims that met these two criteria. Because the terms
“payments” and “charges” are generally applied to claims, we will use “line payment amounts”
and “line billed charges.”) We reviewed only 915 of these line items because 1 provider
associated with 10 line items was no longer in business.

On May 21, 2010, CMS announced that Palmetto GBA, LLC (Palmetto), had been awarded the
contract as the Medicare administrative contractor for Jurisdiction 11 in four States: North
Carolina, South Carolina, Virginia, and West Virginia. For Virginia and West Virginia
providers, the effective date for transferring from NGS to Palmetto was May 16, 2011. Because
Palmetto has assumed responsibility for claims paid by NGS, we have addressed our findings
and recommendations to Palmetto for review and comment.




                                                i
OBJECTIVE

Our objective was to determine whether certain Medicare payments in excess of charges by $500
to $1,000 that NGS made to providers for outpatient services were correct.

SUMMARY OF FINDINGS

Of the 915 selected line items for which NGS made Medicare payments to providers for
outpatient services during our audit period, 231 were correct. Providers refunded overpayments
on 193 line items totaling $124,807 before our fieldwork. The remaining 491 line items were
incorrect and included overpayments totaling $446,581 that the providers had not refunded by
the beginning of our audit.

Of the 491 incorrect line items:

   •    Providers reported incorrect units of service on 255 line items, resulting in overpayments
        totaling $230,028.

   •    Providers reported a combination of incorrect units of service and incorrect HCPCS
        codes on 151 line items, resulting in overpayments totaling $124,619.

   •    Providers did not provide supporting documentation for 57 line items, resulting in
        overpayments totaling $67,446.

   •    Providers billed separately for services on 11 line items for which payment was packaged
        in the payment for the primary service, resulting in overpayments totaling $10,104.

   •    Providers billed for unallowable services or drugs on eight line items, resulting in
        overpayments totaling $8,925.

   •    Providers used incorrect HCPCS codes on nine line items, resulting in overpayments
        totaling $5,459.

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
NGS made these incorrect payments because neither the Fiscal Intermediary Standard System
nor the CWF had sufficient edits in place during our audit period to prevent or detect the
overpayments.

RECOMMENDATIONS
We recommend that Palmetto:

    •   recover the $446,581 in identified overpayments,

    •   implement system edits that identify line item payments that exceed billed charges by a
        prescribed amount, and

    •   use the results of this audit in its provider education activities.


                                                   ii
PALMETTO GBA, LLC, COMMENTS

In written comments on our draft report, Palmetto generally concurred with our findings and
recommendations and described corrective actions that it had taken or planned to take.
Palmetto’s comments are included in their entirety as the Appendix.




                                              iii
                                                   TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION ...................................................................................................................... 1

      BACKGROUND .................................................................................................................. 1
        Medicare Contractors .................................................................................... 1
        Claims for Outpatient Services ....................................................................................... 1
        National Government Services and Palmetto GBA, LLC .............................................. 2

      OBJECTIVE, SCOPE, AND METHODOLOGY ................................................................ 2
        Objective ......................................................................................................................... 2
        Scope ......................................................................................................... 2
        Methodology ................................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ............................................................................. 3

      FEDERAL REQUIREMENTS .................................................................................. 4

      OVERPAYMENTS FOR SELECTED LINE ITEMS ......................................................... 4
        Incorrect Number of Units of Service ............................................................................. 4
        Combination of Incorrect Number of Units of Service and Incorrect
          Healthcare Common Procedure Coding System Codes ...............................................5
        Unsupported Services .....................................................................................................6
        Payment for Packaged Services ...................................................................................... 6
        Services Not Allowable for Medicare Reimbursement .................................................. 6
        Incorrect Healthcare Common Procedure Coding System Codes .................................. 6

      CAUSES OF INCORRECT MEDICARE PAYMENTS ..................................................... 7

      RECOMMENDATIONS ...................................................................................................... 7

      PALMETTO GBA, LLC, COMMENTS..............................................................................7

APPENDIX

      PALMETTO GBA, LLC, COMMENTS




                                                                     iv
                                               INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. Part B of the Medicare program helps cover medically necessary services such as
doctors’ services, outpatient care, home health services, and other medical services. Part B also
covers some preventive services. The Centers for Medicare & Medicaid Services (CMS)
administers the program.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
Part B claims submitted for outpatient services. 1 The Medicare contractors’ responsibilities
include determining reimbursement amounts, conducting reviews and audits, and safeguarding
against fraud and abuse. Federal guidance provides that Medicare contractors must maintain
adequate internal controls over automatic data processing systems to prevent increased program
costs and erroneous or delayed payments. To process providers’ outpatient claims, the Medicare
contractors use the Fiscal Intermediary Standard System and CMS’s Common Working File
(CWF). The CWF can detect certain improper payments during prepayment validation.

Claims for Outpatient Services

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains details regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered. 2 In addition, providers should charge Medicare and other payers, such as private
insurance companies, uniformly. However, Medicare uses an outpatient prospective payment
system to pay certain outpatient providers. In this method of reimbursement, the Medicare
payment is not based on the amount that the provider charges. Consequently, the billed charges
(the prices that a provider sets for its services) generally do not affect the current Medicare
prospective payment amounts. Billed charges generally exceed the amount that Medicare pays
the provider. Therefore, a Medicare payment that significantly exceeds the billed charges is
likely to be an overpayment.




1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. In this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC, whichever is
applicable.
2
    HCPCS codes are used throughout the health care industry to standardize coding for medical procedures.

                                                          1
National Government Services and Palmetto GBA, LLC

Before May 16, 2011, National Government Services (NGS) was the Medicare fiscal
intermediary for Virginia and West Virginia. From January 2006 through June 2009, NGS
processed approximately 92 million line items for outpatient services.

On May 21, 2010, CMS announced that Palmetto GBA, LLC (Palmetto), had been awarded the
contract as the MAC for Jurisdiction 11 in four States: North Carolina, South Carolina, Virginia,
and West Virginia. For Virginia and West Virginia providers, the effective date for transferring
from NGS to Palmetto was May 16, 2011. Because Palmetto has assumed responsibility for
claims paid by NGS, we have addressed our findings and recommendations to Palmetto for
review and comment.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether certain Medicare payments in excess of charges by $500
to $1,000 that NGS made to providers for outpatient services were correct.

Scope

Of the approximately 92 million line items for outpatient services that NGS processed during the
period January 2006 through June 2009, 925 line items totaling $1,100,492 had (1) a Medicare
line payment amount that exceeded the line billed charge amount by $500 to $1,000 and (2) 3 or
more units of service. 3 We reviewed only 915 of these line items because one provider
associated with 10 line items was no longer in business.

We limited our review of NGS’s internal controls to those that were applicable to the selected
payments because our objective did not require an understanding of all internal controls over the
submission and processing of claims. Our review allowed us to establish reasonable assurance
of the authenticity and accuracy of the data obtained from the National Claims History file, but
we did not assess the completeness of the file.

This report includes all items with payments for line items that exceeded the billed charges by
$500 to $1,000. We will report the results of our review of all items with payments for line
items that exceeded billed charges by at least $1,000 separately in report number
A-03-10-00005.

Our fieldwork included contacting NGS in Indianapolis, Indiana, and the 56 providers in
Virginia and West Virginia that received the selected Medicare payments.




3
  A single Medicare claim from a provider typically includes more than one line item. In this audit we did not
review entire claims; rather, we reviewed specific line items within the claims that met these two criteria. Because
the terms “payments” and “charges” are generally applied to claims, we will use “line payment amounts” and “line
billed charges.”

                                                          2
Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   used CMS’s National Claims History file to identify outpatient line items in which
        (1) Medicare line payment amounts exceeded the line billed charge amounts by $500 to
        $1,000 and (2) the line item had 3 or more units of service; 4

    •   identified 915 line items, totaling $1,094,192, that Medicare paid to 56 providers;

    •   contacted the 56 providers that received Medicare payments associated with the selected
        line items to determine whether the information conveyed in the selected line items was
        correct and, if not, why the information was incorrect;

    •   reviewed documentation that the providers furnished to verify whether each selected line
        item was billed correctly;

    •   coordinated the calculation of overpayments with NGS; and

    •   discussed the results of our review with NGS on May 12, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                             FINDINGS AND RECOMMENDATIONS

Of the 915 selected line items for which NGS made Medicare payments to providers for
outpatient services during our audit period, 231 were correct. Providers refunded overpayments
on 193 line items totaling $124,807 before our fieldwork. The remaining 491 line items were
incorrect and included overpayments totaling $446,581 that the providers had not refunded by
the beginning of our audit.

Of the 491 incorrect line items:

    •   Providers reported incorrect units of service on 255 line items, resulting in overpayments
        totaling $230,028.

    •   Providers reported a combination of incorrect units of service and incorrect HCPCS
        codes on 151 line items, resulting in overpayments totaling $124,619.

4
 For this audit we reviewed those line items that met the stated parameters. We applied those parameters to
unadjusted line items. In some cases, subsequent payment adjustments reduced the difference between payments
and charges to less than $500.

                                                       3
   •   Providers did not provide supporting documentation for 57 line items, resulting in
       overpayments totaling $67,446.

   •   Providers billed separately for services on 11 line items for which payment was packaged
       in the payment for the primary service, resulting in overpayments totaling $10,104.

   •   Providers billed for unallowable services or drugs on eight line items, resulting in
       overpayments totaling $8,925.

   •   Providers used incorrect HCPCS codes on nine line items, resulting in overpayments
       totaling $5,459.

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
NGS made these incorrect payments because neither the Fiscal Intermediary Standard System
nor the CWF had sufficient edits in place during our audit period to prevent or detect the
overpayments.

FEDERAL REQUIREMENTS

Section 1833(e) of the Social Security Act states: “No payment shall be made to any provider of
services … unless there has been furnished such information as may be necessary in order to
determine the amounts due such provider … for the period with respect to which the amounts are
being paid ….”

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 23,
section 20.3, states: “providers must use HCPCS codes … for most outpatient services.”
Chapter 25, section 75.5, of the Manual states: “when HCPCS codes are required for services,
the units are equal to the number of times the procedure/service being reported was performed.”
If the provider is billing for a drug, according to chapter 17, section 70, of the Manual, “[w]here
HCPCS is required, units are entered in multiples of the units shown in the HCPCS narrative
description. For example, if the description for the code is 50 mg, and 200 mg are provided,
units are shown as 4 ….”

Chapter 1, section 80.3.2.2, of the Manual states: “In order to be processed correctly and
promptly, a bill must be completed accurately.”

OVERPAYMENTS FOR SELECTED LINE ITEMS

Incorrect Number of Units of Service

Providers reported incorrect units of service on 255 line items, resulting in overpayments totaling
$230,028. The following examples illustrate incorrect units of service claimed:




                                                 4
    •    Twenty-six providers billed Medicare for 76 line items with incorrect service units
         involving 35 different drugs, biologicals, 5 and blood products. Rather than billing
         between 0 and 250 service units, providers billed between 3 and 750 service units. These
         errors occurred because of human error or because the provider’s chargemaster 6 was
         incorrect. As a result of these errors, NGS paid the 26 providers a total of $114,482 when
         it should have paid $24,658, an overpayment of $89,824.

    •    Six providers billed Medicare for 31 line items with an incorrect number of blood
         products (HCPCS J0152). Rather than billing between 2 and 3 service units, providers
         billed between 14 and 30 service units. As a result of these errors, NGS paid the
         six providers $31,310 when it should have paid $4,866, an overpayment of $26,444.

    •    Seven providers billed Medicare for 11 line items with an incorrect number of surgical
         procedures performed. Rather than billing for the number of surgical procedures
         performed, providers either billed the wrong number of procedures or billed for the units
         of time (e.g., minutes, quarter-hours, and hours) spent in the surgical suite. For each of
         the 11 cases, the providers performed between 1 and 7 surgical procedures but billed for
         between 3 and 61 services. As a result of these errors, NGS paid the 7 providers $29,951
         when it should have paid $7,303, an overpayment of $22,648.

Combination of Incorrect Number of Units of Service and Incorrect Healthcare Common
Procedure Coding System Codes

Providers reported a combination of incorrect number of units of service and incorrect HCPCS
codes on 151 line items. These errors resulted in overpayments totaling $124,619. The
following examples illustrate the combination of incorrect number of units of service claimed
and incorrect HCPCS codes used:

    •    One provider billed Medicare for between 5 and 16 service units of Red blood cells,
         leukocytes reduced, irradiated (HCPCS code P9040). However, the provider should have
         billed between 1 and 7 units of Red blood cells, leukocytes reduced (HCPCS code
         P9016), the dose actually administered. Similar errors occurred on a total of 35 line
         items that this provider submitted. As a result of these errors, NGS paid the provider
         $79,791 when it should have paid $29,871, an overpayment of $49,920.

    •    One provider billed Medicare for between 4 and 9 service units of Red blood cells,
         leukocytes reduced, irradiated (HCPCS code P9040). However, the provider should have
         billed between 1 and 4 service units of Red blood cells, leukocytes reduced,
         cmv-negative, irradiated (HCPCS code P9058), the dose actually administered. Similar
         errors occurred on a total of 57 line items that this provider submitted. As a result of
         these errors, NGS paid the provider $65,625 when it should have paid $22,645, an
         overpayment of $42,980.
5
  Biologicals are substances made from a living organism or its products that are used to prevent, diagnose, treat, or
relieve symptoms of a disease.
6
  A provider’s chargemaster contains data on every chargeable item or procedure that the provider offers, including
a factor that converts a drug’s dosage to the number of units to bill.

                                                           5
Unsupported Services

Nine providers billed Medicare for 57 line items for which the providers did not provide
supporting documentation. The providers agreed to cancel the claims associated with these line
items or file adjusted claims and refund the combined $67,446 overpayments that they received.

Payment for Packaged Services

Six providers billed Medicare on 11 line items for services that were not separately payable by
Medicare. These services were billed as separately payable drugs rather than ordinary pharmacy
drugs that are packaged in the payment for the primary procedure. These errors resulted in
overpayments totaling $10,104. For example, one provider billed Medicare for three line items
for Paclitaxel protein bound (HCPCS code J9264). During the dates of service that the providers
administered these drugs, Medicare included payment for these drugs in the payment for the
primary procedure and did not provide for separate reimbursement under the prospective
payment system. As a result of these errors, NGS incorrectly paid the provider $2,095.

Services Not Allowable for Medicare Reimbursement

Providers incorrectly billed Medicare for eight line items for which the services provided were
not allowable for Medicare reimbursement, resulting in overpayments totaling $8,925. The
following examples illustrate claimed services that were not allowable for Medicare
reimbursement:

    •   Two providers billed Medicare for six line items for an evaluation and management code
        (office visit) rather than for a hospital observation code, the actual service provided. For
        these line items, the hospital observation services were not allowable for Medicare
        reimbursement. As a result of these errors, NGS overpaid the two providers $5,634.

    •   One provider billed Medicare for one line item for one dental procedure that was not a
        covered outpatient service. According to the Medicare Benefit Policy Manual (Pub. No.
        100-02, chapter 15, section 150), “items and services in connection with the care,
        treatment, filling, removal, or replacement of teeth or structures directly supporting the
        teeth are not covered” by Medicare, unless the dental procedure is an integral part of
        another procedure covered by Medicare. The dental service billed was not an integral
        part of another covered procedure. As a result of this error, NGS overpaid the provider
        $2,586.

Incorrect Healthcare Common Procedure Coding System Codes

Providers used incorrect HCPCS codes for nine line items, resulting in overpayments totaling
$5,459. The following examples illustrate the use of incorrect HCPCS codes:

   •    One provider billed Medicare for 3 line items for 16 units of service of Pegademase
        bovine (HCPCS code J2504) rather than Ondansetron hydrochloride injection (HCPCS
        code J2405), the drug actually administered. As a result of this error, NGS paid the
        provider $2,351 when it should have paid $48, an overpayment of $2,303.

                                                 6
    •   One provider billed Medicare for two line items for eight units of service of Platelets
        pheresis (HCPCS code P9034) rather than Platelets irradiated (HCPCS code P9032), the
        biological actually administered. As a result of this error, NGS paid the provider $2,145
        when it should have paid $829, an overpayment of $1,316.

CAUSES OF INCORRECT MEDICARE PAYMENTS

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
NGS made these incorrect payments because neither the Fiscal Intermediary Standard System
nor the CWF had sufficient edits in place to prevent or detect the overpayments. In effect, CMS
relied on providers to notify the Medicare contractors of incorrect payments and on beneficiaries
to review their Medicare Summary Notice and disclose any overpayments. 7

On January 3, 2006, CMS required Medicare contractors to implement a Fiscal Intermediary
Standard System edit to suspend potentially incorrect Medicare payments for prepayment
review. As implemented, this edit suspends payments exceeding established thresholds and
requires Medicare contractors to determine the legitimacy of the claims. However, this edit did
not detect the errors that we found because the edit considers only the amount of the payment,
suspends only those payments that exceed the threshold, and does not flag payments that exceed
charges.

RECOMMENDATIONS

We recommend that Palmetto:

    •   recover the $446,581 in identified overpayments,

    •   implement system edits that identify line item payments that exceed billed charges by a
        prescribed amount, and

    •   use the results of this audit in its provider education activities.

PALMETTO GBA, LLC, COMMENTS

In written comments on our draft report, Palmetto generally concurred with our findings and
recommendations and described corrective actions that it had taken or planned to take.
Palmetto’s comments are included in their entirety as the Appendix.




7
  The Medicare contractor sends a Medicare Summary Notice—an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.

                                                         7
APPENDIX
                                                                                                         Page 1 of 2
                          APPENDIX: PALMETTO GBA, LLC, COMMENTS



                                                                                                         Bruce W. Hughes
                                                                                          President and Chief Operating Officer



October 27, 2011


Stephen Virbitsky
Office of Inspector General
Office of Audit Services, Region III
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106-3499

Reference: Draft Report No. A-03-11-00005

Dear Mr. Virbitsky:

This letter is in response to the recent Office of Inspector General (OIG) report entitled “Review of Medicare
Payments Exceeding Charges Between $500 and $1,000 for Outpatient Services Processed by National
Government Services, in Jurisdiction 11 for the Period January 1, 2006 Through June 30, 2009”, addressed to
Bruce Hughes. We appreciate the feedback your review provided and are committed to continuously improving
our service to the Medicare beneficiaries and providers we serve.

As stated in the report, Palmetto GBA, LLC (Palmetto) assumed full responsibility as the Medicare
Administrative Contractor (MAC) for Jurisdiction 11 effective June 2011. During the audit period approximately
915 line items were selected which had:
         (1)        a Medicare line payment amount that exceeded the line billed charge between $500 and
                    $1,000
         (2)        incorrect units of service
         (3)        a combination of incorrect units of service and incorrect HCPCS
         (4)        no supporting documentation provided
         (5)        separate billing for packaged services
         (6)        billing for unallowable services
         (7)        use of incorrect HCPCS codes

Of the 915 selected line items for which Medicare made payments to providers for outpatient services during the
audit period, 231 were correct. Providers refunded overpayments on 193 line items totaling $124,807 before
fieldwork. The remaining 491 line items were incorrect. Thus the following recommendations:

   •   Recover the $446,581 identified overpayments.

       Palmetto GBA Response:
       All claims identified in the audit are adjusted for payment recovery and competed as of October 24, 2011.

   •   Implement system edits that review line item payments that exceed billed charges by a prescribed
       amount.




                                       www.palmettogba.com Post Office Box 100134
                                                  ISO 9001 Columbia, South Carolina 29202-3134
                                                                                                   Page 2 of 2


Stephen Virbitsky
October 27, 2011
Page 2

           Palmetto GBA Response:
           Palmetto GBA has implemented Medically Unlikely Edits (MUEs), Maximum Allowed Units (MAUs),
           and exclusion edits (e.g. dental, cosmetic).

       •   Use the results of this audit in its provider education activities.

           Palmetto GBA Response:
           • Correct coding has been and continues to be discussed in each educational session.

           •   Drugs and Biologicals Webinars instruct providers to identify drugs and biologicals with appropriate
               HCPCS codes.

           •   In the Drugs and Biologicals Webinar providers are instructed to identify drugs and biologicals with
               appropriate HCPCS codes and appropriate numbers of units.

           •   Billing for unallowable services is and will continue to be discussed in CERT education and Top 10
               Claim Submission Errors educational presentations.

           •   Our recent CERT/Claim Submission Errors One-on-One sessions focused on documentation and
               improper payments.

           •   Additional 2011 and 2012 provider outreach and education events include seminars and workshops
               on:
                   o Claims Submission Errors
                   o Billing and Coding
                   o Part B of A Small and New Provider Billing Training
                   o CERT
                   o Top Denials and Inquiries.

 In addition, Palmetto GBA will address claims submission errors on a quarterly basis in our Ask the Contractor
 teleconferences and monthly meetings with hospital Compliance Officers to increase awareness.

 Thank you for providing Palmetto GBA with the opportunity to offer feedback regarding your review.              If you
 have any questions, please do not hesitate to contact me.

                                                                     Sincerely

                                                                     /BRUCE HUGHES/

 cc:       Steven Smetak, COTR, CMS
           Daniel Dion, CMS
           Ann Archibald, Palmetto GBA
           Mike Barlow, Palmetto GBA
           Robin Spires, Palmetto GBA
           Sheri Thompson, Palmetto GBA




                                        www.palmettogba.com Post Office Box 100134
                                                   ISO 9001 Columbia, South Carolina 29202-3134
